                    NATIONAL ENDOWMENT FOR THE ARTS
                    OFFICE OF INSPECTOR GENERAL




      FINANCIAL MANAGEMENT SYSTEM &
          COMPLIANCE EVALUATION

                                           OF THE

                     MUSIC-THEATRE GROUP
                            NEW YORK, NEW YORK


                             REPORT NO. SCE-08-03
                              NOVEMBER 21, 2007


                              REDACTED - FOR PUBLIC USE



                           REPORT RELEASE RESTRICTION
This report may not be released to anyone outside of the National Endowment for the Arts (NEA)
without the approval of the NEA Office of Inspector General.

Information contained in this report may be confidential. The restrictions of 18 USC 1905 should be
considered before this information is released to the public.

Furthermore, information contained in this report should not be used for purposes other than those
intended without prior consultation with the NEA Office of Inspector General regarding its
applicability.
                                INTRODUCTION

BACKGROUND
Music-Theatre-Group (MTG) was founded in 1970 to nurture, develop, and produce the
works of emerging, mid-career, and established artists in order to take productions to
diverse communities. It centers its production activities on the following: 1) to
recognize and support artists of considerable gifts at any stage in their development, 2) to
support long-term commitments to collaboration, and 3) to produce and promote these
artists’ music-theatre works. MTG is located in New York City.


OBJECTIVE AND SCOPE
The objective of this financial management system and compliance evaluation by the
National Endowment for the Arts (NEA) Office of Inspector General (OIG) is to
determine whether the organization’s financial management system and recordkeeping
complies with the requirements established by the Office of Management and Budget
(OMB) and NEA’s General Terms and Conditions for Grants and Cooperative
Agreements to Organizations (General Terms). The evaluation was conducted in
accordance with the President’s Council on Integrity and Efficiency Quality Standards
for Inspections, as applicable.



PRIOR AUDIT COVERAGE
During the past five years, neither the Government Accountability Office (GAO) nor the
NEA Office of Inspector General has issued any audit reports on Federal grants awarded
to the MTG. As of our September 14, 2007 site visit, the most recent issued independent
auditor’s report on MTG was for the years ended June 30, 2006 and June 30, 2005. The
auditors, Bloom and Street, LLP, rendered an unqualified (clean) opinion on MTG.
MTG was not subject to the audit requirements of OMB Circular A-133.


                       RESULTS OF EVALUATION
Our evaluation concluded that MTG could not support some of the expenditure amounts
reported for selected Grant No. 03-2800-5011, and did not have a Section 504
self-evaluation on file. In addition, MTG
           was not in compliance with the repayment terms of its Cash Reserve Fund.




                                             2
REPORTED EXPENDITURES
For selected Grant No. 03-2800-5011, MTG did not maintain personnel activity (time and
effort) reports for all employees whose salaries and fringe benefits are charged, in whole
or in part, to either the award or the matching funds if the award is greater than $25,000
(or $50,000 or more for grants awarded beginning with fiscal year 2005). This
requirement is mandated by OMB and is detailed in NEA’s General Terms. A sample
personnel activity report is also provided in the General Terms.

MTG should develop procedures to ensure that individual time sheets are maintained for
employees whose salaries are charged, in whole or in part to grant awards that are
$50,000 or more.

In addition, MTG could not justify how it determined the percentage it used to allocate
salaries and overhead costs. As a result of these two deficiencies, we are questioning
salary and overhead costs totaling $64,304. Without the questioned costs, MTG does not
meet the matching requirements of the grant. Therefore, a potential refund of $18,626
could be due the NEA (see Appendix 1).


SECTION 504 SELF-EVALUATION
MTG did not have the required Section 504 self-evaluation on file. As noted in NEA’s
General Terms, “A Section 504 self-evaluation must be on file at your organization.” A
Section 504 Self-Evaluation Workbook is now available online at
www.arts.gov/about/504Workbook.html.

Subsequent to our evaluation, MTG provided us with a completed Section 504 Self-
Evaluation Workbook. Therefore, no additional action is required on this finding.


OTHER ISSUES




                                            3
Cash Reserve Fund. MTG previously was awarded a Challenge Grant in 1986. Part of
the award was to establish a permanent Cash Reserve Fund, which was to consist of NEA
funds of $135,000 and matching amounts of $405,000 (total fund $540,000). According
to the terms of the award, all borrowings from this fund shall be repaid in cash according
to a repayment schedule to be developed and adhered to by the grantee. MTG indicated
that it has not paid back any borrowings to the Fund since the early 1990’s. MTG’s
Combined Statement of Financial Position as of June 30, 2006, showed a Due from
Unrestricted Funds of $543,391 and Unrestricted Operating Assets of a negative
$627,449.

Because of the current financial condition of the organization, it does not appear that
MTG will be able to pay the Fund back anytime in the near future. However, MTG has
indicated that during the past year they have taken steps to raise new funds through
increased Board giving, involvement in the Patron Giving Program and involvement with
the Capacity Giving Program. (Hopefully, these new funds if not used for operating
expenses can be used to repay the Cash Reserve Fund                                     .)

We recommend that MTG develop a workable plan that would result in MTG coming
into full compliance with the requirements of the grant. Failure to come in compliance
could result in funds due to the NEA in the amount of $135,000.

Based on the above findings, we believe that MTG should be placed on the Working
Capital Advance (WCA) Method of Funding. The WCA method works like an imprest
fund, allowing a grantee to be advanced funds, which must be disbursed upon receipt (the
initial request cannot be for the entire amount of the award). After the funds are received
and disbursed, the grantee can request another cash advance to replenish the fund. All
requests for payments, exclusive of the initial advance, should be supported by adequate
documentation. As such, with each new reimbursement request, information is provided
that verifies actual expenses incurred and paid from the previous request. If a grant has a
matching requirement, expenses will be reimbursed only if required matching costs have
also been incurred, paid and documented. The final reimbursement request must indicate
that all of the required matching costs under the grant were incurred and paid. MTG
should remain under WCA until it can document that it has a stable financial condition
and all other report recommendations are cleared.

Accounting Manual. We found that MTG did not have a formalized accounting manual.
Although having a manual is not a NEA or OMB requirement, we believe that individual
employee’s knowledge would be further enhanced and potential systematic problems
could be avoided if MTG formalized many of its own policies and procedures, and
guidance available on other grants and accounting matters. This formalized accounting
handbook could contain policies and procedures relating to financial management, grants
management, internal controls, budgeting, etc. An addendum to the handbook could
include publications such as the General Terms and Conditions for Grants, the Financial
Management Guide for Non-profit Organizations, the OMB Circulars and other
publications on Federal and State requirements.




                                             4
EXIT CONFERENCE
An exit conference was held with MTG personnel on September 14, 2007. A followup
conversation on November 16, 2007, also took place with the MTG’s producing director.
MTG basically concurred with our findings and recommendations, and agreed to take
corrective action.


                          RECOMMENDATIONS

We recommend that MTG:

   1. Develop procedures to ensure that personnel activity (time and effort) reports are
      prepared for employees whose salaries are charged, in whole or in part to grant
      awards that are $50,000 or more. (This amount has been increased to $50,000 or
      more for grants awarded beginning with fiscal year 2005).

   2. Develop procedures to justify the charging of overhead costs. Alternatively, an
      indirect cost rate may need to be negotiated.

   3. Provide information to support the questioned salary and overhead costs of
      $64,304 claimed under Grant No. 03-2800-5011. If the documentation submitted
      is not deemed satisfactory, a refund of up to $18,626 may be required.

   4.


   5. Develop a workable plan that would result in MTG coming in full compliance
      with the Challenge Grant requirements for a Cash Reserve Fund.

We recommend that NEA:

   1. Make MTG ineligible for any future awards and not make any payments to MTG
      until an agreement is reached                               and evidence of
      such payments being made is provided to NEA.

   2. Place MTG on the Working Capital Advance Method of Funding for all current
      and future grants. All reimbursement requests should be supported by adequate
      documentation such as cancelled checks, invoices, personnel activity reports or
      other records; documentation supporting program accomplishments should also
      be provided.




                                           5
                                                       Appendix 1



        Calculation of Potential Refund
         On Grant No. 03-2800-5011


Total Costs Claimed                       $107,052
Less: Questioned Salary & Fringe            (64,304)
Total Allowable Costs                        42,748
Less: NEA Share of Allowable Costs          (21,374)
Matching Amount                              21,374

Amount Disbursed                            40,000
Less: NEA Share of Allowable Costs         (21,374)
Potential Refund                          $ 18,626




                                 6
